APPENDIX

Table of Contents
Appendix A:

T»’

United States ofAmerica v. Antwan Lamar Hutchinson, No. 194003, Opinion of the U.S. Court of Appeals for the Sixth
A-3
Circuit, filed October 20,2020

Case: 19-4003

Document: 34-1

Filed: 10/20/2020

(1 of 8)

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

}

Tel. (513)564-7000
wvvw.ca6.uscourts.gov

Filed: October 20, 2020 . ■

i

Mr. Matthew Charles Gulotta
202 Adams Avenue
Memphis, TN 38103
Ms. Kimberly Robinson
Office of the U.S; Attorney ■':
303 Marconi Boulevard
Suite 200
Columbus, OH 43215
Re: Case No. 19-4003, USA v. Antwan Hutchinson
Originating Case No. : 2:17-cr-00077-l
Dear Counsel,
•>

The Court issued the enclosed opinion today in this case.
Sincerely yours,
s/Cathryn Lovely
Opinions Deputy
cc: Mr. Richard W. Nagel
• *i

■

i

Enclosure
Mandate to issue

«=»

Appendix A-3

Case: 19-4003

Document: 34-2

Filed: 10/20/2020

(2 of 8)

Page: 1

NOT RECOMMENDED FOR PUBLICATION
File Name: 20a0597n.06
Case No. 19-4003
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
f

FILED
UNITED STATES OF AMERICA,

)
)
)
)
)
)
)
)
)

Plaintiff-Appellee,
v.

ANTWAN LAMAR HUTCHINSON,
Defendant-Appellant.

Oct 20, 2020
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF
OHIO

BEFORE: COOK, BUSH, and NALBANDIAN, Circuit Judges.
COOK, Circuit Judge. Antwan Lamar Hutchinson challenges the validity of his guilty
plea, arguing that the district court erred by failing to hold a competency hearing sua sponte.
We AFFIRM.
I.
A grand jury indicted Hutchinson on twelve charges, including counts of drug trafficking
and murdering witnesses. At his arraignment, the district court asked Hutchinson standard
questions, including whether he had “been treated by a medical doctor or a mental health
professional for any reason[.]” (R. 56 at 158.) To this Hutchinson answered yes, and his counsel
elaborated that “[djuring his current incarceration he’s under medical attention.” (Id.) The court
also asked Hutchinson if he takes medication and Hutchinson responded that he does. The judge

Appendix A-4

Case: 19-4003

Document: 34-2

Filed: 10/20/2020

Page: 2

Case No. 19-4003, United States v. Hutchinson
continued, asking Hutchinson whether he read the indictment and consulted with his counsel about
it. This too prompted an affirmative response from Hutchinson. Hutchinson then waived his right
to a speedy trial, confirming that he consulted with counsel about this decision too.
After arraignment, the court received a letter from Hutchinson saying that “going [through
counsel] is not working] right now” and that he “would like to [exercise his] Sixth Amendment
and constitution[a]l right to a fast and speedy trial.” (R. 53 at 149.) The letter prompted a status
conference and a resulting postponement of the scheduled trial; the government and Hutchinson’s
codefendants consented, but not Hutchinson.
Later, the court got word that Hutchinson wanted to plead guilty, so it held a plea hearing
to first confirm that Hutchinson indeed wanted to change his plea to guilty. Hutchinson answered
yes, affirming that he felt neither forced nor coerced. The court went on to the standard inquiries,
having Hutchinson confirm his name, age, education, and reading and writing ability.
And, as the judge had when he arraigned Hutchinson, he asked him if he was “being treated
by a medical doctor or mental health professional for any reason[.]” (R: 308 at 959.) After
Hutchinson responded yes, the court asked him if he takes “any prescription medications as a result
of that[.]” (Id.) Hutchinson told the court that he takes medication for “[b]ipolar [disorder], high
blood pressure and depression.” (Id.) In response, the court inquired whether any of his
medications “interfere with your ability to comprehend the nature of these proceedings^]” (Id.)
Hutchinson answered no. The court directed the same question to Hutchinson’s counsel, who
answered: “Your Honor, we’ve had an opportunity to meet with Mr. Hutchinson over the course
of this representation and earlier this morning. We have no question as to his competence to plead
here today.” (Id.)

-2Appendix A-5

(3 of 8)

Case: 19-4003

Document: 34-2

Filed: 10/20/2020

Page: 3

Case No. 19-4003, United States v. Hutchinson
In keeping with the requirements of Federal Rule of Criminal Procedure 11, the judge
proceeded to confirm Hutchinson’s understanding of the trial rights he was waiving and each of
the terms of the plea agreement, including his agreement to a sentence of life without parole. At
the conclusion of this plea colloquy, Hutchinson pleaded guilty to one count of conspiracy to
distribute controlled substances and two counts of murdering a witness.
Following the plea hearing, Hutchinson filed a sentencing memorandum and mitigation
report that detailed his mental health problems and intellectual disability. Imposition of the
stipulated sentence of life imprisonment followed. Hutchinson timely appeals.
II.
A district court must order a hearing to determine a defendant’s competency “if there is
reasonable cause to believe that the defendant may presently be suffering from a mental disease or
defect rendering him mentally incompetent to the extent that he is unable to understand the nature
and consequences of the proceedings against him or to assist properly in his defense.” 18 U.S.C.
§ 4241 (a). The court need not hold a competency hearing if the defendant has “sufficient present
ability to consult with his lawyer with a reasonable degree of rational understanding” and “a
rational as well as factual understanding of the proceedings against him.” Godinez v. Moran, 509
U.S. 389, 396 (1993) (quoting Dusky v. United States, 362 U.S. 402, 402 (I960)).
On appeal, we examine “whether a reasonable judge, situated as was the trial court judge
whose failure to conduct an evidentiary hearing is being reviewed, should have experienced doubt
with respect to competency to stand trial.” Filiaggi v. Bagley, 445 F.3d 851, 858 (6th Cir. 2006)
(quoting Williams v. Bordenkircher, 696 F.2d 464, 467 (6th Cir. 1983)). In determining whether
the court should have held a hearing, we consider in-court observations of the defendant’s
demeanor and conduct, evidence of irrational behavior, history of past mental illness, medical

-3 Appendix A-6

(4 of 8)

Case: 19-4003

Document: 34-2

Filed: 10/20/2020

Page: 4

Case No. 19-4003, United States v. Hutchinson
evidence in the record, and statements by defense counsel regarding the defendant’s competency.
See United States v. Dubrule, 822 F.3d 866, 879 (6th Cir. 2016). We review a district court’s
decision not to conduct a competency hearing for abuse of discretion. United States v. Heard, 762
F.3d 538, 541 (6th Cir. 2014).
III.
Hutchinson argues that three features of his interaction with the court should have alerted
the judge to question his competence to be subjected to criminal proceedings: the court’s
observations of Hutchinson’s in-court conduct, the letter he sent to the court expressing frustrations
with counsel and pushing for a speedy trial, and evidence of his mental health issues. We
respectfully disagree.
A. Hutchinson’s Conduct
The government maintains that the record includes no red flags regarding Hutchinson’s
conduct at any court proceeding that ought to have prompted the court to inquire further into his
competency. Rather, his court appearances reflect that the court had no reason to “doubt
[Hutchinson’s] competency to stand trial.” Filiaggi, 445 F.3d at 858. As the government notes,
Hutchinson responded appropriately at each of the opportunities the court had to observe him.
During his change-of-plea hearing, for example, Hutchinson told the court that his counsel’s advice
satisfied him, and that he freely pleads guilty. Similarly, Hutchinson ably told the court that he
wished to change his plea to guilty, understood the plea agreement, the rights he was waiving, and
the agreed sentence of life imprisonment. As argued by the government, the court observed
Hutchinson conducting himself similarly at arraignment, during which he appropriately responded
that he read the indictment, discussed it with counsel, and consulted with counsel about waiving
his right to a speedy trial. Throughout these appearances, the record supports the government’s

-4Appendix A-7

(5 of 8)

Case: 19-4003

Document: 34-2

Filed: 10/20/2020

Page: 5

Case No. 19-4003, United States v. Hutchinson
stance that Hutchinson responded coherently to all questions from the court, with no evidence of
disjointed or non-responsive answers. See United States v. Coleman, 871 F.3d 470, 477 (6th Cir.
2017); United States v. Kirk, 240 F. App’x 66, 68 (6th Cir. 2007).
B. Hutchinson’s Letter
As for his second reason why the court ought to have known of his shortcomings,
Hutchinson points to his letter demanding to go to trial as “ma[king] it clear that [he] was not
taking the advice of his counsel” and “failing] to take that advice was irrational and not in his own
best interest.” (Appellant Br. at 19.) The government, however, aptly responds that neither poor
trial strategy nor disagreement with counsel demonstrates incompetence. See United States v.
Miller, 531 F.3d 340, 349-51 (6th Cir. 2008); United States v. Ford, 184 F.3d 566, 581 (6th Cir.
1999). In fact, that letter could support the contrary view that Hutchinson was able to articulate
legal principles to the court, such as his “Sixth Amendment and cons[t]itution[a]l right to a fast
and speedy trial” and thus understood the nature of the proceedings against him. (R. 53 at 149);
see Coleman, 871 F.3d at 477 (noting that a defendant’s ability to make legal arguments evidences
his understanding of the nature of the proceedings against him).
C. Hutchinson’s Mental Health
Finally, Hutchinson figures that the court had a duty to hold a hearing to examine whether
his mental illnesses affected his competency to plead after he told the court that he was taking
medication for bi-polar disorder, high blood pressure, and depression. As Hutchinson sees it, taken
together with his testimony about his medication, his sentencing memorandum and mitigation
report “made it abundantly clear” that he had a “serious mental health condition” that might have
affected his competency. (Appellant Br. at 19.)

-5 Appendix A-8

(6 of 8)

Case: 19-4003

Document: 34-2

Filed: 10/20/2020

Page: 6

Case No. 19-4003, United States v. Hutchinson
And while true that a history of mental illness may alert the court to question competency,
“it does not follow that because a person is mentally ill he is not competent to stand trial.” Miller,
531 F.3d at 349 (quoting United States v. Davis, 93 F.3d 1286, 1290 (6th Cir. 1996)). In fact,
though a court receives a medical report detailing a defendant’s mental illnesses, it may reasonably
rely on counsel’s statements regarding that defendant’s competency to participate in court
proceedings. See United States v. Teague, 956 F.2d 1427, 1432 (7th Cir. 1992); see also United
States v. Morgano, 39 F.3d 1358, 1374 (7th Cir. 1994) (“Who but the defendant’s attorney knows
best if the accused is able to assist in his own defense?”). To trigger the court’s duty to hold a
competency hearing sua sponte, the defendant must tie his ailments to a “‘deep[] breakdown’ in
cognition,” United States v. Tucci-Jarraf, 939 F.3d 790, 795 (6th Cir. 2019) (quoting Coleman,
871 F.3d at 477), such that he lacked the “ability to consult with counsel, assist in his own defense,
or understand the proceedings against him,” United States v. Alfadhili, 762 F. App’x 264, 268 (6th
Cir. 2019). This court has affirmed challenged pleas when the defendant fails to make such a
connection. See, e.g., id. (“bi-polar disorder, PTSD, and depression”); Miller, 531 F.3d at 349
(paranoia); Mackey v. Dutton, 217 F.3d 399, 410-14 (6th Cir. 2000) (schizophrenia).
Here, as the government persuasively argues, without tethering his claims of mental
shortcomings to an inability to understand or participate in the court proceedings, Hutchinson
cannot show that the court abused its discretion in failing to hold a hearing. And upon learning of
Hutchinson’s medication for bi-polar disorder, high blood pressure, and depression, the judge here
confirmed with Hutchinson that none “interfere^] with [his] ability to comprehend the nature of
these proceedings.” (R. 308 at 959.) What is more, Hutchinson’s counsel offered his assessment:
“Your Honor, we’ve had an opportunity to meet with Mr. Hutchinson over the course of this
representation and earlier this morning. We have no question as to his competence to plead here

-6Appendix A-9

(7 of 8)

Case: 19-4003

Document: 34-2

Filed: 10/20/2020

Page: 7

Case No. 19-4003, United States v. Hutchinson
today.” (Id.); see Dubrule, 822 F.3d at 879. In the absence of a request for a hearing, the court
proceeded to deliver the standard change-of-plea colloquy.
In reviewing competency appeals, “[t]he bare record that this court reviews on appeal is a
poor substitute for the district court’s personal observation of the defendant’s demeanor and the
district court’s considered judgment of the defendant’s ability to conduct trial proceedings.”
United States v. Stafford, 782 F.3d 786, 791 (6th Cir. 2015). We find no support in the record for
second guessing the district court’s assessment of Flutchinson’s competency to plead guilty.
IV.
We AFFIRM.

-7Appendix A-10

(8 of 8)

